                                UNITED STATES 

                        NUCLEAR REGULATORY COMMISSION 

                                 WASHINGTON, D.C. 20555-000


OFFICE OF THE
INSPECTOR GENERAL

                                              June 9,2010


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations



FROM:
                          &Q;Q'
                           Assistant Inspector G


SUBJECT: 	                 MEMORANDUM REPORT: AUDIT OF NRC'S PROCESS
                           FOR CLOSED MEETINGS (OIG-10-A-14)


The Office of the Inspector General (OIG) conducted an audit to determine if the
Nuclear Regulatory Commission's (NRC) process for conducting meetings that are
closed to the public hinders the transparent transaction of nuclear regulation. To
increase accountability and promote informed public participation, the Federal
Government promotes openness and transparency in the sharing of information. NRC
is implementing these concepts into its nuclear regulatory activities. NRC has a policy
and process in place to share information regarding closed meetings between staff and
external stakeholders (referred to in this report as closed staff meetings). Based on this
audit, OIG found that openness and transparency in NRC's process for closed meetings
can be enhanced by:

      A. Defining what constitutes a "meeting."

      B. Making closed staff meeting notices and summaries accessible by the public.

      C. Issuing closed staff meeting notices and summaries in a timely manner.

These improvements would remove the ambiguity in NRC's guidance for closed staff
meetings. Lack of clarity in the guidance may impede agency staff from effectively and
conSistently complying with the agency's openness goal. Moreover, without these
improvements, the agency risks a public perception that NRC does not regulate in an
open and transparent manner. This report makes two recommendations aimed at
enhancing NRC's process for closed meetings.
                                                   Audit of NRC's Process for Closed Meetings


Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this report. Actions taken or
planned are subject to OIG followup as stated in Management Directive (MD) 6.1.


BACKGROUND
In 1977, Congress enacted the Government in the Sunshine Act (the Sunshine Act) with
the goal of enhancing openness in the decisionmaking process of Federal Government
agencies. The Sunshine Act states that when Federal agency heads deliberate on
behalf of their respective organizations, these meetings must be open to the public.
However, the Sunshine Act provides exemptions allowing for certain meetings to be
closed to the public. Each Federal agency is required to document the reasons why a
meeting was closed; give notice of the closed meeting; keep transcripts, electronic
recordings, or minutes of the closed meeting; and report to Congress annually on
compliance with these requirements. The Sunshine Act provisions apply to meetings in
which NRC Commission members participate; currently, the agency is meeting the
reporting requirements of the act.

In addition to meetings between Commission members and stakeholders, NRC staff
meet regularly with various external stakeholders (e.g., NRC licensees, license
applicants) to discuss agency regulatory activities. These exchanges take place in
various forums, including in-person, teleconference, videoconference, phone
conversations, and Web-based meetings. These meetings are not governed by the
Sunshine Act.

NRC strives to be open and transparent in the transaction of nuclear regulation, and
NRC's Commission members promote this goal. In a recent speech, the current NRC
Chairman stated that NRC must conduct itself openly and transparently in fulfilling the
agency's core mission and preparing for new issues and challenges. A former NRC
Chairman also affirmed that transparency and public involvement must be key elements
of NRC's licensing and oversight, and a prior NRC Commissioner stated that for NRC to
fulfill its mission, it must do so in an open and transparent regulatory environment.


RESULTS
Although NRC strives for a transparent closed meeting process, the public availability of
closed staff meeting notices and summaries is inconsistent. According to Federal
guidance, the agency's regulatory process should be open and transparent. However,
ambiguity in NRC's guidance for closed staff meetings may impede agency staff from
effectively and consistently complying with the agency's openness goal. Moreover,
NRC risks the public perception of not regulating in an open and transparent manner.




                                            2

                                                              Audit of NRC's Process for Closed Meetings


Open and Transparent Regulatory Process

A recent Federal initiative encourages Government agencies to provide more
information to the public about their activities. On December 8, 2009, the Office of
Management and Budget (OMB) issued Directive M-10-06, Open Government
Directive, which identifies the openness and transparency goals for the entire Federal
Government. This directive states that transparency is a key principle for an open
Government; transparency promotes accountability by providing the public with
information about what the Government is doing. Furthermore, OMB Directive M-10-06
states that an essential component of transparency is the timely publication of
information.

To demonstrate how NRC is addressing OMB's directive, the agency issued its Open
Government Plan on April 7,2010. NRC's Open Government Plan aligns the agency's
Organizational Values and Principles of Good Regulation with the recent Federal
Government initiative on openness and transparency.

NRC's Organizational Values and Principles of Good Regulation highlight the agency's
openness goal. One of NRC's organizational values is openness in communications
and decisionmaking, which highlights that NRC's regulatory process should be
transparent and forthright. Furthermore, NRC's principles of good regulation
underscore openness by stating that "nuclear regulation is the public's business, and it
must be transacted publicly and candidly."

To ensure that members of the public have the opportunity to enhance their
understanding of the agency's regulatory process, NRC issued MD 3.5, Attendance at
NRC Staff Sponsored Meetings,1 as the agency guidance for meetings between NRC
staff and external stakeholders. MD 3.5, like the Sunshine Act, provides exemptions
that allow for certain meetings between NRC staff and stakeholders to be closed to the
public.

Inconsistent Public Availability of Closed Staff Meeting Information

Although NRC strives for a transparent closed meeting process, the public availability of
closed staff meeting notices and summaries is inconsistent. Specifically:
      ? 	 There is uncertainty as to what constitutes a "meeting."

      ? 	 Closed staff meeting information is not always accessible by the public.

      ? 	 The timeframe in which closed staff meeting notices and summaries are issued
          varies.




1   MD 3.5 was issued on September 26, 1994, and last revised on April 10, 2007.



                                                     3

                                                       Audit of NRC's Process for Closed Meetings


Uncertainty About What Constitutes a "Meeting"

There is uncertainty as to what constitutes a "meeting," leading to inconsistencies in the
recording of closed staff meeting information. For example, stakeholders expressed
concerns about certain phone conversations between NRC and licensees/applicants
that could have been construed as closed staff meetings and, therefore, should have
been announced and summarized. One agency official questioned whether visits 'from
NRC employees to licensee/applicant sites can be interpreted as "meetings," and added
that NRC needs better guidance in this area. In this era where there are many means
by which NRC staff can have conversations with external stakeholders, it is
important for the agency to clearly de'fine what constitutes a "meeting." Without a clear
definition of what constitutes a "meeting," it is hard for agency staff and external
stakeholders to know how many closed staff meetings actually occur.

Closed Staff Meeting Information Is Not Always Accessible By the Public

Agency guidance states that staff are encouraged to post closed staff meeting
information in the Agencywide Documents Access and Management System (ADAMS);2
thus, this information is not always accessible by the public. Although the public cannot
attend closed staff meetings, notices of when the meetings take place can be made
available to the public. While sensitive issues are discussed in closed staff meetings
and the details are not appropriate to be made public, NRC can issue generic
summaries that can be made public.

       Notices Are Not Always Accessible By the Public

Notices of closed staff meetings are not always accessible by the public. When agency
staff enter a document into ADAMS, they can profile the document as either public or
non-public. A document designated as "public" allows NRC internal and external
stakeholders access to that document, whereas a document designated as "non-public"
prevents external stakeholders from accessing that document through ADAMS. OIG
identified 375 closed staff meeting notices posted in ADAMS for calendar years 2007
through 2009. Of those 375 closed staff meeting notices, only about 67 percent are
accessible by the public.

In addition, there are discrepancies in the information obtained from NRC offices
compared to the meeting notices that are available in ADAMS. NRC offices provided
OIG with lists of closed staff meetings that occurred during calendar years 2007 through
2009. The office-provided lists of closed staff meeting notices do not match the notices
in ADAMS. For example, one NRC office stated that it had 81 closed staff meetings
during calendar year 2009. However, OIG was able to find a reference to only one of
these closed staff meetings in ADAMS (see Figure 1). Based on this, OIG is not




2 ADAMS is a document management system used by NRC to organize, process, manage, search, and
retrieve agency records.

                                               4

                                                            Audit of NRC's Process for Closed Meetings


confident that the data available in ADAMS represents the entire universe of closed staff
meetings. An NRC official noted that a possible reason for these discrepancies might
be that some meetings are not noticed because the meeting titles are considered to be
proprietary information.


         Figure 1: Availability of ADAMS Information on 2009 Closed Meetings*




                               100 


          # of Meetings 50 


    • List provided by NRC
      Office
                                 o
                                       Office Office Office Office Office
I .• List compiled by OIG •.             1      234                          5
  I through ADAMS         :                        NRC Office
                                                                      *Source: OIG-prepared graphic.

         Summaries Are Not Always Prepared and Publicly Available

Summaries of closed staff meetings are not always prepared and publicly available in
ADAMS. Of the 375 closed staff meeting notices in ADAMS, less than half have
accompanying summaries. Furthermore, only 80 summaries were profiled as public
documents, accessible to all stakeholders through ADAMS.

Timeframe in Which Notices and Summaries Are Issued Varies

The timeframe in which closed staff meeting notices and summaries are issued to the
public varies. Based on the 375 closed staff meeting notices available in ADAMS,
about 40 percent of the meeting notices publicly available in ADAMS were issued less
than 10 days prior to the date of the meeting (see Figure 2).3 Summaries of closed staff
meetings, when prepared, were publicly available in ADAMS between 1 and 60 days
after the meeting took place.




3An NRC official noted that some closed staff meetings are scheduled on a very short notice and,
therefore, the agency is unable to provide advance notification of these meetings.

                                                   5

                                                    Audit of NRC's Process for Closed Meetings


      Figure 2: Closed Staff Meeting Notice Issuance Date Analysis (2007-2009)*



                 4.38% 4.38%
              5.98%                                          liD Issued 10 or more days prior


                                                             .1 ssued 9-5 days prior

                                                             Dlssued 4-2 days prior
        24.30%
                                           60.96%
                                                             o Issued   1 day prior


                                                             .1 ssued on the same day or after
                                                               meeting




                                          *Source: OIG-prepared graphic using ADAMS data.

Closed Staff Meeting Guidance Is Ambiguous
NRC guidance for documenting closed staff meetings is ambiguous, leading to
inconsistencies in the reporting and public availability of closed staff meeting
information. Specifically, MD 3.5 does not define what constitutes a "meeting." Even
though MD 3.5 provides definitions for open and closed staff meetings and provides
examples of closed meetings, it does not define the word "meeting." Without
understanding what constitutes a "meeting," NRC staff could be confused as to which
activities should be considered public or closed meetings.

MD 3.5 also does not specify whether closed staff meeting notices and summaries
should be posted publicly in ADAMS. Although MD 3.5 encourages agency staff to post
closed staff meeting notices and summaries in ADAMS, it does not state whether this
information should be public or non-public. This omission has led to inconsistencies in
the public availability of closed staff meeting notices and summaries.
In addition, MD 3.5 and ADAMS Template NRC-001, ADAMS Document Processing
Instruction Template: Local Office Policy and Procedures for NRC Generated
Documents, present conflicting guidance regarding whether closed staff meeting notices
are suggested or required. MD 3.5 states that closed staff meeting notices "should" be
prepared and it refers to ADAMS template NRC-001 for additional guidance. ADAMS
Template NRC-001 states that if a meeting is closed to the public, NRC staff is
"required"to enter the notice into ADAMS. Adding to the conflicting guidance, ADAMS
Template NRC-001 also states, in a separate section, that closed meeting notices
"should" be entered into ADAMS.


                                          6

                                                     Audit of NRC's Process for Closed Meetings


Agency guidance also does not specify a timeframe for the issuance of closed staff
meeting notices and summaries. The agency does not have a timeliness metric for
closed staff meetings. External stakeholders stated that, in many cases, they learned
about an f\IRC closed staff meeting only after the meeting occurred and that the
summaries for those meetings were not easily found and, in many cases, were
unavailable.

Risk of Not Operating in an Open and Transparent Manner

Ambiguity in NRC's guidance for closed staff meetings may impede agency staff from
effectively and conSistently complying with the agency's openness goal. Moreover, the
agency risks the public perception that NRC does not regulate in an open and
transparent manner, and that the agency gives preferential treatment to certain external
stakeholders. Recent Federal Government initiatives require agencies to improve the
openness and transparency of their activities with the public. Therefore, it is especially
important for NRC to clarify its guidance to improve its communication regarding closed
staff meeting information and thereby better meet its goal for an open and transparent
nuclear regulatory process.

Recommendations

OIG recommends that the Executive Director for Operations:

   1. Revise MD 3.5 to enhance NRC's closed staff meeting process. Specifically,

          a. 	 Clearly define what constitutes a "meeting."

          b. 	 Clarify guidance to ensure that closed staff meeting notices and
               summaries are appropriately available to the public through ADAMS.

          c. 	 Revise ADAMS Template NRC-001 and MD 3.5 to ensure that the
               guidance for preparing closed staff meeting notices is consistent.

   2. Establish a timeframe for issuing closed staff meeting notices and summaries.


AGENCY COMMENTS

OIG held an exit meeting with NRC management on May 25, 2010. During the meeting,
agency management provided informal comments to the draft report. OIG included
these comments, as appropriate, and provided NRC with a revised draft report. Agency
management generally agreed with the report's finding and recommendations and
chose not to provide formal comments.




                                            7

                                                    Audit of NRC's Process for Closed Meetings



SCOPE AND METHODOLOGY

To accomplish the audit objective, the audit team reviewed Federal and internal NRC
guidance such as the Sunshine Act, the Code of Federal Regulations, MD 3.5, and
individual NRC program office procedures. In addition, the audit team analyzed lists of
closed staff meetings as prepared by various NRC offices, and closed staff meeting
notices and summaries obtained through ADAMS. The audit team also interviewed
agency staff and external stakeholders.

OIG conducted this performance audit between November 2009 and March 2010 in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our audit objective. OIG conducted this work at
NRC's headquarters located in Rockville, Maryland.

Major contributors to this report were Sherri Miotla, Team Leader; Eric Rivera, Audit
Manager; Catherine Colleli, Audit Manager; Yvette Mabry, Senior Auditor; Jaclyn
Storch, Senior Management Analyst; Rebecca Ryan, Management Analyst; and
Vidya Sathyamoorthy, Student Management Analyst.

cc:   N. Mamish, OEDO
      J. Andersen, OEDO
      J. Arildsen, OEDO
      C. Jaegers, OEDO




                                            8

Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl A. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
